March 29, 2010

BERNICE GRANT
SENIOR PLANT MANAGER, INDIANAPOLIS PROCESSING AND DISTRIBUTION
  CENTER

SUBJECT: Audit Report – Powered Industrial Vehicle Management System at the
         Indianapolis Processing and Distribution Center
         (Report Number NO-AR-10-004)

This report presents the results of our review of the Powered Industrial Vehicle
Management System (PIVMS)1 at the Indianapolis Processing and Distribution Center
(P&DC), located in the Great Lakes Area (Project Number 10XG011NO000). The vice
president, Network Operations, requested this audit. Our objectives were to determine if
the PIVMS was functioning as intended and producing efficiency improvements. See
Appendix A for additional information about this audit.

Conclusion

The Indianapolis P&DC did not always use the PIVMS as intended and consequently
had not realized all possible efficiency improvements from the system. While
management used the PIVMS to identify employees involved in vehicle accidents, and
evaluate equipment operator staffing levels, they did not use it to manage equipment
operator productivity, schedule preventive maintenance, monitor vehicle battery usage,
or identify opportunities to reduce vehicle inventory. If the Indianapolis P&DC used the
PIVMS as intended, we estimate that management could save 20,0002 workhours by
the end of fiscal year (FY) 2013, with an economic impact of $7.9 million in savings over
10 years. In addition, opportunities to reduce powered vehicle equipment exist.

Use of the PIVMS at the Indianapolis P&DC

When the Indianapolis P&DC deployed PIVMS in June 2007, management realized
some efficiency improvements and reduced 8 percent of the workhours in tow and
forklift operations. However, the Indianapolis P&DC did not achieve the average level of
improvements attained by the other 65 P&DCs that had the PIVMS installed for at least
1 year. The Indianapolis P&DC used 8.47 percent of mail processing workhours in tow


1
 The PIVMS consists of intelligent wireless devices installed on powered industrial vehicles and client-server
software for access control, utilization analysis, real-time location tracking, and many other functions.
2
    Our actual estimation was 20,351 workhours, which we rounded to 20,000 workhours.
Powered Industrial Vehicle Management System                                   NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


and forklift operations in FY 2009 compared to the lower 6.26 percent used by the
average of the 65 sites. See Appendix B for our detailed analysis of this issue.

Management did not use the PIVMS as intended due to several factors because they:

       Were not aware of any established national goals or requirements to use the
        PIVMS to increase operational efficiency.

       Had little confidence in the accuracy of system reports or design features.

       Had not trained all supervisors who use the PIVMS.

By using the PIVMS as intended, the Postal Service could increase operational
efficiency at the Indianapolis P&DC. We estimated that management could reduce
20,000 mail processing workhours by the end of FY 2013, with an associated economic
impact of $7.9 million present value dollars in savings occurring over 10 years. See
Appendix C.

Management was aware and supportive of the need to achieve an acceptable return on
investment from the PIVMS. At our exit conference on February 2, 2010, Indianapolis
P&DC management committed to improve efficiency, reduce equipment inventory, and
improve internal controls over powered vehicle equipment inventory.

We noted the Postal Service had not established specific PIVMS goals and targets at a
national level and we will address these issues in our capping report. We will also
examine the cost savings associated with vehicle reductions in our capping report.

We recommend the senior plant manager, Indianapolis P&DC:

1. Use the Powered Industrial Vehicle Management System to the fullest extent
   possible to manage operations and continue to improve mail processing efficiency
   by reducing 20,000 workhours in tow and forklift operations by fiscal year 2013.

2. Reduce the number of powered equipment vehicles.

3. Provide Powered Industrial Vehicle Management System training to all employees
   who need to use it.




                                                     2
Powered Industrial Vehicle Management System                                   NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


Powered Vehicle Equipment Internal Controls

Internal controls over employee and vehicle safety at the Indianapolis P&DC were not in
place. Specifically, we found that:

       Three vehicles used for mail processing did not have PIVMS equipment.
        Consequently, equipment operators using these vehicles did not complete
        Occupational Safety and Health Administration (OSHA) checklists as required.

       Management had disabled the PIVMS feature that verifies that drivers have valid
        licenses less than 1 year after management implemented the PIVMS (June
        2007). As a result, licenses had expired and the PIVMS would not allow vehicles
        to start; therefore, access to vehicles was not controlled and there was potential
        for unlicensed drivers to operate vehicles.

Management stated that they let these conditions occur in order to address operational
issues temporarily; however, they did not implement sufficient compensating controls.
As a result, the safety and security of employees and equipment was at risk. See
Appendix B for our detailed analysis of this issue.

During our audit, we verified that all vehicles had the PIVMS installed and that
management had re-enabled the PIVMS license verification feature. Management had a
plan in place to ensure that all vehicle drivers maintained current licenses.

Other Matters – Security of Facility

We observed security deficiencies at the Indianapolis P&DC. For example, there was
no fence around the perimeter of the facility,xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxx kdkdkdkdkd Failure to secure entry points exposes the Postal Service’s portable
assets (such as computers, printers, televisions, etc.) to potential theft or damage. We
identified $830,171 in portable capital assets “at risk,” and will report this amount as
non-monetary impact. See Appendix B for our detailed analysis.

We recommend the senior plant manager, Indianapolis P&DC:

4. Improve controls over access to the Indianapolis Processing & Distribution Center.

Management’s Comments

Management agreed with the findings and recommendations. Management stated they
would increase use of the PIVMS and achieve the recommended 20,000 workhour
savings in tow and forklift operations by FY 2013. Management also indicated they have
established an automated reporting system to expose themselves to efficiency data
from the PIVMS and to assist them in periodically analyzing the vehicle inventory level




                                                     3
Powered Industrial Vehicle Management System                                  NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


to identifying cost-reduction opportunities. They are also developing employee PIVMS
training courses for March and April 2010. Further, management acknowledged that
facility access controls need improvement and funding requests have, and will continue,
to be submitted. They also agreed to ensure access controls are in place and
functioning. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report and management’s
corrective actions should resolve the issues identified in the report. The OIG considers
recommendation one significant, and therefore requires OIG concurrence before
closure. Consequently, the OIG requests written confirmation when corrective actions
are completed. The recommendation should not be closed in the Postal Service’s
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:     Patrick R. Donahoe
        Steven J. Forte
        Jordan Small
        Sally K. Haring




                                                     4
Powered Industrial Vehicle Management System                                                      NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


                         APPENDIX A: ADDITIONAL INFORMATION
BACKGROUND

The Indianapolis P&DC is located in the Great Lakes Area, Greater Indiana District. The
map below shows the Great Lakes Area Districts.

                                                                               Great Lakes Area
                                                                                       FY 2010




                             Lakeland
                                                    Greater
                                                    Michigan           Southeast
                                                                       Michigan



                         Northern Illinois      Chicago          Detroit




                             Central Illinois      Greater
                                                   Indiana



                          Gateway




The Indianapolis P&DC processed over 1.5 billion first handling pieces (FHP) and used
1,510,476 Function 1 workhours in FY 2009. The Postal Service leases the facility. The
Indianapolis P&DC implemented the PIVMS in June 2007 at a projected cost of
$418,000. The Postal Service justified the purchase stating it would:

       Eliminate unauthorized use of Powered Industrial Vehicles (PIVs).

       Reduce injuries resulting from unsafe operation of PIVs.

       Reduce damage to mail and equipment resulting from unsafe operation of PIVs.

       Reduce the number of workhours used to transport mail and equipment
        throughout the plant.

       Reduce the number of pieces of equipment needed to perform this work.

       Reduce the number of workhours needed to maintain the fleet of PIVs.




                                                             5
Powered Industrial Vehicle Management System                                  NO-AR-10-004
 at the Indianapolis Processing and Distribution Center



This implementation was part of a national contract the Postal Service awarded to I.D.
Systems, Inc. of Hackensack, NJ, in January 2005 to produce and deploy the PIVMS.
The Postal Service started the program essentially as a pilot when it signed a $3.6
million contract with I.D. Systems to implement a wireless asset management system at
10 bulk mailing and distribution facilities across the country. As of October 2009, the
Postal Service placed orders for PIVMS deployment in 114 facilities. The total amount
funded for the PIVMS as of October 2009 was over $35 million.

The Postal Service intended the PIVMS to provide automated measurement, control,
and compliance reporting of PIV operations within a plant, resulting in optimal PIV
safety conditions, operations, supervision, and associated savings. Some of the major
system design features included:

       Two-way text messaging capability.

       Assurance of OSHA safety compliance by allowing only currently certified
        operators to logon and operate specified equipment.

       An increase in safety and accountability by shutting down a vehicle after
        recording a significant impact.

       Ability to measure the amount of time an operator is logged into a vehicle and the
        amount of time the vehicle is in motion.

       Ability to locate and track vehicles within a plant.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if the PIVMS was functioning as intended and
producing efficiency improvements. To accomplish these objectives, we observed mail
processing operations and analyzed both volume and workhour trends at the
Indianapolis P&DC. We benchmarked the Indianapolis P&DC with 65 other P&DCs, all
of which have the PIVMS. We also evaluated utilization and capacity, staffing levels,
and the inventory of powered equipment at the Indianapolis P&DC.

To conduct this audit, we relied on computer-processed data maintained by Postal
Service Operational Systems, which included the Web-based Complement Information
System and the Enterprise Data Warehouse system. We did not test the validity of
controls over these systems. However, we checked the accuracy of the data by
confirming our analysis and results with Postal Service managers and found that the
data was sufficiently reliable.

We conducted this performance audit from November 2009 through March 2010 in
accordance with generally accepted government auditing standards and included such



                                                     6
Powered Industrial Vehicle Management System                                      NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on February 2, 2010, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We conducted six prior reviews. The sites we reviewed did not always use the PIVMS
as intended and consequently did not fully realize efficiency improvements.
Management agreed with our recommendations in these prior reports.

                                             Report                            Monetary
               Report Title                  Number       Final Report Date     Impact
    Powered Industrial Vehicle
    Management System at the
                                         NO-AR-08-007     September 15, 2008    $3,345,456
    Raleigh Processing and
    Distribution Center
    Powered Industrial Vehicle
    Management System at the
                                         NO-AR-08-007     September 23, 2008    $1,576,086
    Providence Processing and
    Distribution Center
    Powered Industrial Vehicle
    Management System at the
                                         NO-AR-09-001     December 3, 2008      $1,981,643
    Louisville Processing and
    Distribution Center
    Powered Industrial Vehicle
    Management System at the
                                         NO-AR-09-007        July 23, 2009     $14,598,866
    Oakland Processing and
    Distribution Center
    Powered Industrial Vehicle
    Management System at the
                                         NO-AR-09-010     September 22, 2009              $0
    Washington Network and
    Distribution Center
    Powered Industrial Vehicle
    Management System at the
                                         NO-AR-10-001     December 14, 2009               $0
    Tampa Processing and
    Distribution Center




                                                     7
Powered Industrial Vehicle Management System                               NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


                              APPENDIX B: DETAILED ANALYSIS

Volume and Workhour Trends

When the Indianapolis P&DC deployed PIVMS in June 2007, management realized
some efficiency improvements. We reviewed mail volume, workhour, and productivity
trends for the Indianapolis P&DC for FY 2007 through FY 2009. During this period
FHP volume at the Indianapolis P&DC increased by 5.96 percent and mail processing
(Function 1) workhours decreased by 15.15 percent.

Consequently, overall mail processing productivity improved by 24.88 percent. In FY
2009, Indianapolis P&DC tow and forklift actual workhours represented 8.47 percent of
the total Function 1 hours. From FY 2007 to FY 2009, Indianapolis P&DC tow and
forklift workhours decreased by 8.61 percent and overtime used in these operations
decreased by 28.93 percent. See Charts 1 and 2.

        CHART 1: INDIANAPOLIS P&DC TOW AND FORKLIFT WORKHOURS
                             FY 2007 – FY 2009




                                                     8
Powered Industrial Vehicle Management System                                 NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


CHART 2: INDIANAPOLIS P&DC TOW AND FORKLIFT OVERTIME WORKHOURS
                         FY 2007 – FY 2009




The Indianapolis P&DC did not achieve the average level of improvement attained by
the other 65 P&DCs that had the PIVMS installed for at least 1 year. We reviewed
volume, workhour, and productivity trends for the P&DCs that had the PIVMS installed
before the end of FY 2009, so there was at least one completed fiscal year of data. For
the 65 sites meeting these criteria, we reviewed volume, workhour, and productivity
trends from FYs 2007 through 2009. The average site decreased workhours in these
operations by 14.13 percent and decreased overtime by 65.17 percent. See Charts 3
and 4.




                                                     9
Powered Industrial Vehicle Management System                                NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


      CHART 3: 65 P&DCs WITH PIVMS – TOW AND FORKLIFT WORKHOURS
                            FY 2007 – FY 2009




        CHART 4: 65 P&DCs WITH PIVMS – TOW AND FORKLIFT OVERTIME
                       WORKHOURS FY 2007 – FY 2009




The average site used 6.26 percent of Function 1 workhours in tow and forklift
operations, compared to Indianapolis P&DC’ use of 8.47 percent.




                                                     10
Powered Industrial Vehicle Management System                                           NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


The President’s Commission on the U.S. Postal Service, July 31, 2003, recommends
that the mission of the Postal Service be “. . . . to provide high-quality, essential postal
services to all persons and communities by the most cost-effective and efficient means
possible at affordable and, where appropriate, uniform rates.” Title 39 U.S.C. Part 1,
Chapter 4, § 403, states, “The Postal Service shall plan, develop, promote, and provide
adequate and efficient postal services at fair and reasonable rates and fees.”

The Postal Accountability Enhancement Act of December 2006, P.L. 109-435, Title II
dated December 20, 2006, indicates “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

Use of the PIVMS at the Indianapolis P&DC

The Indianapolis P&DC used the PIVMS to identify employees involved in vehicle
accidents and evaluate equipment operator staffing levels. However, they did not
always use the PIVMS to:

          Manage equipment operator productivity.

          Schedule preventive maintenance or ensure that maintenance was completed.

          Monitor vehicle inventory or battery usage.

          Identify opportunities to reduce vehicle inventory.

Management of Equipment Operator Workhours

Management at the Indianapolis P&DC did not always use the operational features of
the PIVMS. For example, we interviewed supervisors and found that only two of the 31
supervisors used the PIVMS graphical viewer to locate vehicles on the workroom floor.
As of November 2009, only 30 percent of managers and supervisors had received
PIVMS training. We also found the majority of Indianapolis P&DC supervisors did not
review any PIVMS reports. These reports allow management to monitor and measure
vehicle utilization attributes such as simultaneous vehicle usage, speed, distance
traveled, idle time, and travel time while carrying or pulling a load3 in order to assess
productivity.

Management stated that they were not always confident in the accuracy of the reports.
For example:




3
    Travel with Load reports measure time traveled while carrying or pulling a load.




                                                            11
Powered Industrial Vehicle Management System                                                           NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


        Not all PIVs were equipped to report data. For example, three vehicles did not
         have Vehicle Asset Communicators (VAC) or vehicle sensors used to report
         data; therefore, travel with load data was understated.

        Management allowed employees to use more than one piece of equipment at a
         time, so login hours were overstated.

Consequently, the reported utilization rates may have been lower than actual utilization.

Maintaining Vehicle Equipment and Monitoring Battery Usage

Management at the Indianapolis P&DC did not use the PIVMS reports to schedule
preventive maintenance on vehicles or ensure that unit personnel performed the
required maintenance. Instead, management used the Electronic Maintenance Activity
Reporting and Scheduling System (eMARS) to schedule vehicle maintenance and did
not perform any preventive maintenance on the PIVMS equipment.4 The PIVMS
maintenance tool provides the ability to forecast, schedule, and process preventative
maintenance events. By using this tool, management could more effectively manage
preventive maintenance of vehicles and the PIVMS.

In addition, management did not use the PIVMS battery management system to monitor
battery usage. The purpose of the PIVMS Battery/Charger Administration module is to
extend vehicle battery life and reduce battery inventory. Management did not install
electronic battery fobs to track battery usage on all PIV batteries at the Indianapolis
P&DC.

We also found that the Indianapolis P&DC did not always efficiently charge vehicle
batteries. During our prior PIVMS audits, we found that maintenance removed the
batteries from the vehicle and placed them in a rack to be charged. Maintenance then
installed another previously charged battery in the vehicle and immediately placed the
vehicle back into service. The Indianapolis P&DC followed this procedure when they
charged tow vehicle batteries. See Illustration 1.




4
  Preventive maintenance on the PIVMS includes checking communication connectivity, checking for hydraulic fluid
leaks at the lift sensor, cleaning the sensor lens, and inspecting the sensor mounting and cables. We will address the
use of eMARS instead of PIVMS and the lack of preventive maintenance on PIVMS equipment in our capping report.




                                                          12
Powered Industrial Vehicle Management System                                             NO-AR-10-004
 at the Indianapolis Processing and Distribution Center




               Illustration 1: A battery being removed from a tow vehicle with a hoist
               on 11/17/09 at the Indianapolis P&DC. Employees discharged tow
               vehicle batteries and then removed them from the vehicles and
               recharged them.

However, the Indianapolis P&DC did not follow this procedure with forklift vehicles.
Maintenance personnel did not remove forklift batteries from the vehicles to be charged.
Instead, employees parked forklifts in the battery room and attached charger cables to
the batteries. See Illustration 2.




               Illustration 2: An employee charged a forklift vehicle battery at the Indianapolis
               P&DC without removing it from the vehicle on 11/16/09.




                                                     13
Powered Industrial Vehicle Management System                                       NO-AR-10-004
 at the Indianapolis Processing and Distribution Center



This procedure resulted in idle forklifts of as long as 8 hours while the batteries charged.
By removing discharged batteries, replacing them with charged batteries and
immediately returning the vehicle to service, management could reduce vehicle
inventory.

Vehicle Inventory Management

We found that management did not use the PIVMS to identify opportunities to make
reductions in inventory. During our observations, we noted that vehicles were often idle.
See Illustrations 3 and 4. 




               Illustration 3: Idle forklift vehicle at the Indianapolis P&DC on
               11/17/2009 at 8:06 p.m.




                                                     14
Powered Industrial Vehicle Management System                                                        NO-AR-10-004
 at the Indianapolis Processing and Distribution Center




                Illustration 4: Idle forklift vehicle at the Indianapolis P&DC on
                11/17/2009 at 3:27 a.m.

Of the 44 total vehicles, we found the maximum number used simultaneously from
October 2008 through September 2009 was 27, indicating surplus vehicles. In addition,
the maximum number of powered vehicle equipment operators scheduled to work at
any one time was 21, also indicating there were more than enough vehicles for
equipment operators to use. During our audit, management stated they planned to
reduce PIV equipment. We will examine the costs associated with vehicle reductions in
our capping report.

Powered Vehicle Equipment Internal Controls

Internal controls over employee and vehicle safety at the Indianapolis P&DC were not in
place. Specifically, we found that:

       Three vehicles used for mail processing did not have a PIVMS. 5 Consequently,
        equipment operators using these vehicles did not complete OSHA checklists.
        OSHA requires completion of a checklist to ensure the PIV is in good operating
        order prior to going into service. See Illustration 5.




5
  PIVMS requires the operator to complete an electronic OSHA checklist within a prescribed time after logging on to
the vehicle. Management did not require employees driving the three vehicles without the PIVMS to complete manual
OSHA checklists.




                                                        15
Powered Industrial Vehicle Management System                                       NO-AR-10-004
 at the Indianapolis Processing and Distribution Center




                Illustration 5: Tow vehicle without a PIVMS VAC or tow sensor at
                the Indianapolis P&DC on 11/19/2009 at 11:29 a.m. The top arrow
                shows where the VAC was originally mounted. The bottom arrow
                shows where the tow sensor was originally mounted.



       Management disabled the PIVMS feature that verifies that drivers have valid
        licenses, since some licenses had expired and the PIVMS would not allow
        vehicles to start. Therefore, access to vehicles was not controlled and unlicensed
        drivers were able to operate vehicles. Management did not keep accurate
        records on employee licenses, but we found that at least seven of the 47 drivers
        (or 15 percent) were not certified to operate a vehicle.

Consequently, the Postal Service was at risk for incurring potential OSHA fines. For
example, in September 2009, the OSHA imposed a $22,000 fine on the Eau Claire, WI
Processing and Distribution Facility for failing to ensure that employees examined
vehicles daily prior to placing them in service.

Management stated that they let these conditions occur to allow them to address
operational issues temporarily, but they did not implement sufficient compensating
controls. As a result, the safety and security of employees and equipment was at risk.




                                                     16
Powered Industrial Vehicle Management System                                         NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


During our review at the Indianapolis P&DC, we did not observe unsafe driving
practices or accidents. However, we observed damage to the facility from powered
equipment vehicles. See Illustrations 6 and 7.




                  Illustration 6: Damage to the observation area at Grid G9,
                  Indianapolis P&DC, 11/16/2009.




                  Illustration 7: Damage to brick corner near Bay 25, Indianapolis
                  P&DC, 11/17/2009.




                                                     17
Powered Industrial Vehicle Management System                                         NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


The Strategic Transformation Plan 2006 to 2010 states, “Perhaps the greatest
investment the Postal Service can make for employees is maintaining a safe work
environment — making sure they return home to their families each day the same way
they came in to work.” In addition, the plan says, “The Postal Service is subject to the
reporting requirements of the Occupational Safety and Health Administration and
follows the required criteria and reporting methodology. Providing a safe workplace is a
demonstration of the commitment the Postal Service has to its employees.”

Other Matters – Security of the Facility

We observed security deficiencies at the Indianapolis P&DC. For example, there was no
fence around the perimeter of the facility, gates leading to the dock areas were not
badge-controlled, and access to the office tower was possible from outside the building
without using the security key pads. The Indianapolis P&DC is across the street from
the 63,000 seat Lucas Oil Stadium, which hosts National Football League games and
other events. See Illustration 8.




               Illustration 8: The Lucas Oil Stadium is across the street from the
               Indianapolis P&DC and is the planned site for the 2012 Super Bowl.

Close proximity to this stadium exposes the Indianapolis P&DC to large volumes of
pedestrian traffic. Management agreed that security needs improvement. In fact, it has
contracted for a security guard to be on site from 7:00 p.m. to 7:00 a.m., 7 days a week,
with additional time on football game days. However, failure to secure entry points puts
the Postal Service’s portable assets (such as computers, printers, televisions, etc.) at
risk. We identified $830,171 in portable capital assets at risk and will report this amount
as non-monetary impact. See Appendix C.




                                                     18
Powered Industrial Vehicle Management System                                           NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


                APPENDIX C: MONETARY AND NON-MONETARY IMPACTS

                                        MONETARY IMPACT

                         Funds Put to Better Use (Workhour Savings)

                                                                          Time Frame: 10 Fiscal
      Employee Category                                                           Years
                                        Workhour Reduction
          Impacted                                                         Discounted Savings
                                                                           (Net Present Value)
Function 1 Mail Processing
                                                 20,000                         $7,913,246
Level 5 Mail Handler Hours

                             Calculation of Funds Put to Better Use

By using the PIVMS as intended, we estimated that management could reduce 20,000
workhours by the end of FY 2013.

         We calculated earned hours using the median FHP productivity of 883 for mail
          processing operations (Function 1).

         We determined the average percentage of hours used in tow and forklift
          operation to total function 1 hours to be 6.26 percent.

         We determined the Indianapolis P&DC used 8.47 percent of earned function 1
          workhours in tow and forklift operations.

         We multiplied 6.26 by calculated, earned Function 1 hours for the Indianapolis
          P&DC and determined that earned tow and forklift workhours were 20,0006
          higher than actual hours used in these operations.

                                    NON-MONETARY IMPACT

                                            Assets at Risk

                       Indianapolis P&DC Portable
                                                               Asset Value
                             Capital Assets
                       Micro Computer Systems                            $799,233
                       Printers                                            14,259
                       Television and Video
                                                                           16,679
                       Equipment
                                      Total                              $830,171


6
    Our actual estimation was 20,351, which we rounded down to 20,000.




                                                     19
Powered Industrial Vehicle Management System                NO-AR-10-004
 at the Indianapolis Processing and Distribution Center


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                     20
Powered Industrial Vehicle Management System              NO-AR-10-004
 at the Indianapolis Processing and Distribution Center




                                                     21
